TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Uninstalled Computer Security Patches
                  Continue to Put Computer Systems at Risk



                                      September 21, 2006

                              Reference Number: 2006-20-167




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(b) = Law Enforcement Guideline(s)
 7 = Predecisional Staff Recommendations or Suggestions to Agency Decision Makers
 8 = Information Reflecting the Bureau’s Decision-making Processes


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2006


 MEMORANDUM FOR ACTING CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Uninstalled Computer Security Patches Continue
                               to Put Computer Systems at Risk (Audit # 200520035)

 This report presents the results of our review to assess the effectiveness of the Internal Revenue
 Service’s (IRS) practices for ensuring the identification and installation of security updates for
 computer systems and applications.

 Impact on the Taxpayer
 When vendors identify security flaws with their systems, they make security patches1 available to
 be installed on their customers’ computers. The IRS process for installing patches has not
 ensured all of its 100,000 computers have been adequately protected. As a result, sensitive
 taxpayer information is more susceptible to unauthorized disclosure to hackers and unethical
 employees and contractors, and computer systems are more vulnerable to disruptions of
 operations that could jeopardize and waste taxpayer dollars.

 Synopsis
 In May 2004, the IRS suffered one of its most significant computer security incidents when the
 Sasser Worm2 propagated itself throughout the entire IRS computer network. The incident could
 have been avoided if an available security patch had been installed on infected systems.


 1
   A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
 computer for the flaw to be corrected.
 2
   The Sasser Worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
 computers and transferred additional exploit code to the computers. It also probed for other computers to infect.
 This Worm rendered computers inoperable.
                                   Uninstalled Computer Security Patches
                                  Continue to Put Computer Systems at Risk



Operational organizations within the IRS were notified numerous times by the Office of Mission
Assurance and Security Services to install the patch from April 14, 2004, when the patch became
available, through May 2, 2004, when the Worm first infected IRS systems. However, the patch
was not applied to servers consistently and was not applied to any workstations. The Worm cost
the IRS an estimated $3.6 million in lost salaries and $50.6 million in lost or delayed tax
assessments and tax collections.3
From June 2001 through February 2006, we issued 11 reports containing patch management
issues.4 During our current and prior reviews, we found patch identification, testing, and
monitoring efforts were generally adequate. The IRS has
established a vulnerability and remediation group tasked
                                                               Despite recent improvements
with identifying software for improving the overall                to patch management
management of this process. Additionally, the IRS has         practices, the IRS continues to
implemented corrective actions related to patch                 have unpatched computers
management issues from our prior reports. Finally, during      throughout  its infrastructure.
the aftermath of the Sasser Worm incident, the IRS
conducted an internal review that identified breakdowns in
procedures and recommended corrective actions to prevent such events from recurring.
Although the IRS has made commendable progress towards improving its patch management
processes, controls over patch implementation continue to allow unpatched systems. For
example:
    •   The IRS’ own monitoring efforts determined several essential security patches were not
        installed on Windows-based workstations and servers. An IRS report dated
        November 22, 2005, showed 33 critical patches were missing from a significant number
        of workstations and servers.
    •   Our review of the IRS’ Common Operating Environment5 noted 28 percent of the
        Windows workstations reviewed were missing security patches.
    •   Our review of the Tivoli® Software Suite6 noted security patches were successfully
        installed only 67 percent of the time on Windows-based computers.
    •   Nine other reviews noted patches were not installed to varying degrees on various
        computer systems.


3
  The $50.6 million estimate was identified by the IRS in its post-Sasser Worm evaluation soon after the incident
occurred. The IRS has since stated that tax assessments and tax collections would have been processed by the IRS
in subsequent tax periods and, therefore, do not represent actual losses.
4
  See Appendix IV for a list of the audit reports included in this review.
5
  See Appendix IV, Report 1.
6
  See Appendix IV, Report 2. Tivoli® is a registered trademark owned by International Business Machines.
                                                                                                                    2
                               Uninstalled Computer Security Patches
                              Continue to Put Computer Systems at Risk



The patches were not always installed for two primary reasons: the automated approach used to
install patches on Windows-based systems did not always have valid connections to the systems
requiring patching, and system administrators did not always install patches due to the impact
they believed such patches would have on systems under their control or due to the
labor-intensive process of manually installing patches on numerous systems.
As for its internal review of the Sasser Worm incident, the IRS either took no corrective actions
or did not complete corrective actions for 3 of the 10 recommendations. While the IRS has
formed a group to develop stronger patch management controls, the scope of the group’s work is
limited and not designed to address the causes mentioned above. As of September 2005, the
group estimated full implementation of the controls within its scope may not occur for an
additional 12 months to 18 months.
Ineffective IRS patch management practices continue to put the IRS network at risk. The IRS
continues to be exposed to network intrusions that could result in enormous financial impact
related to lost or delayed tax assessments and collections and nonfinancial impact related to lost
productivity, similar to the effects that occurred when the Sasser Worm infiltrated the IRS.

Recommendation
Because we have included recommendations related to patch management issues in our prior
audit reports and the IRS is taking actions to address patch management, we made no additional
recommendations in this report. We will continue to monitor the IRS’ patch management
strategy and report any actions taken to eliminate the risks or deficiencies identified in our future
security-related reviews.

Response
IRS management agreed with the facts in our report and noted they continue to take aggressive
approaches towards improving the patch management process. The IRS has developed a
self-install script (computer program) that identifies and installs patches on workstations and
laptops. A nationwide roll out of this script is scheduled to be completed by February 2007. The
IRS has also taken steps to improve the success rate of patch distributions to workstations.
These steps include aggressive management of Tivoli® endpoints and considering an approach
that would not allow workstations onto the network until missing patches are updated.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report finding.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.


                                                                                                     3
                                        Uninstalled Computer Security Patches
                                       Continue to Put Computer Systems at Risk




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Patch Installation Practices Continue to Result in Unpatched
          Computer Systems ........................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Prior Treasury Inspector General for Tax Administration
          Audit Reports With Security Patch Management Issues ..............................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 13
         Uninstalled Computer Security Patches
        Continue to Put Computer Systems at Risk




             Abbreviations

CIO       Chief Information Officer
COE       Common Operating Environment
CSIRC     Computer Security Incident Response Center
IRS       Internal Revenue Service
                                  Uninstalled Computer Security Patches
                                 Continue to Put Computer Systems at Risk




                                           Background

A 2004 Computer Security Institute and Federal Bureau of Investigation survey1 showed that
91 percent of the respondents believed their computer system intrusions could have been
prevented if system administrators had implemented patches for countering known
vulnerabilities. A patch is a fix of a design flaw in a
computer program. Patches must be installed or            A patch is a fix of a design flaw in
applied to the appropriate computer for the flaw to          a computer program. When
be corrected. While vendors try to address known           patches are not installed timely,
security flaws immediately, a time gap occurs from             hackers could exploit the
when the problem becomes publicly known until the        unpatched   weakness and assume
                                                                control of a computer.
vendor prepares the update to correct the flaw and
users install the update. This gap, which provides potential intruders an opportunity to take
advantage of the known flaws and mount attacks on vulnerable computers and networks, is
becoming increasingly shorter as technology increases and hackers get wiser.
For this reason, it is critical, particularly for high-risk security vulnerabilities, that organizations
apply security patches as quickly as possible. The potential risk of an unpatched weakness
varies, depending on the nature of the weakness. A hacker could exploit an unpatched weakness
and take over control of a computer to access its contents (e.g., user accounts, password
information), use the computer as a launching point to attack other computers, or simply damage
the computer so no one else can use or access it.
The actual installation of a patch appears to be a simple task. However, two factors complicate
and challenge this task. First, all computers to which the patch applies must be identified and
patched. The larger the organization, the more computers are likely to exist and be affected by
vulnerabilities. Second, there are thousands of vulnerabilities being identified each year. The
CERT® Coordination Center2 determined 5,990 security vulnerabilities were reported during
2005. Vulnerabilities are generally spread across different software products. The more types of
software used within an organization, the more difficult the task of patching all affected software
products becomes.
The Internal Revenue Service (IRS) is a large organization with almost 100,000 employees and
is very reliant on automation and the use of computers to administer the nation’s tax system. It


1
  The 2004 Computer Crime and Security Survey was conducted by the Computer Security Institute with
participation of the San Francisco Federal Bureau of Investigation’s Computer Intrusion Squad. The 2004 survey
results were based on the responses of 494 computer security practitioners across the United States.
2
  The CERT® Coordination Center is a center of Internet security expertise located at the Software Engineering
Institute, a Federally funded research and development center operated by the Carnegie Mellon University.
                                                                                                         Page 1
                                       Uninstalled Computer Security Patches
                                      Continue to Put Computer Systems at Risk



has over 100,000 computers containing various operating systems and applications.
Consequently, the seemingly easy task of patching computers turns into a monumental effort.
Computer security patching can be segmented into four basic processes: identification, testing,
distribution and installation, and monitoring and follow-up.
       1. Patch identification involves actively monitoring vendor and other information sources
          for known vulnerabilities and their related patches.
       2. Patch testing involves conducting tests on a patch to ensure there are no unintended
          consequences when the patch is installed on affected computers.
       3. Patch distribution and installation involve ensuring patches get distributed to the
          appropriate functions and installed on all affected computers.
       4. Patch monitoring and follow-up involve the active monitoring of systems, to identify any
          systems without required patches, and follow-up efforts to ensure patches ultimately get
          installed on these systems.
Various organizations within the IRS manage the patch process. The Computer Security
Incident Response Center (CSIRC) within the Office of Mission Assurance and Security
Services has primary responsibility for identifying and notifying the Chief Information Officer
(CIO) and business unit organizations about the availability of patches. It also conducts patch
monitoring and follow-up. Upon being notified of patches, system administrators from various
functions under the CIO and business units conduct patch testing, installation, monitoring, and
follow-up, depending on the type of computer and user. For example, the End User Equipment
and Services organization under the CIO is responsible for end-user computers, so it is also
responsible for testing, installing, and following up on patches for IRS employees’ computers.
This review was performed in the office of the CIO at the IRS National Headquarters in
Washington, D.C., and New Carrollton, Maryland, during the period November 2005 through
April 2006. This review also relied on results presented in 11 of our security-related audit
reports issued from June 2001 through February 2006.3 The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
    See Appendix IV for a list of the audit reports included in this review.
                                                                                                Page 2
                                   Uninstalled Computer Security Patches
                                  Continue to Put Computer Systems at Risk




                                      Results of Review

In May 2004, the IRS suffered one of its most significant computer security incidents when the
Sasser Worm4 propagated itself throughout the entire IRS computer network. The incident could
have been avoided if an available security patch had been installed on infected systems.
Operational organizations within the IRS were notified numerous times to install the patch from
April 14, 2004, when the patch became available, through May 2, 2004, when the Worm first
infected IRS systems. However, the patch was not applied to servers consistently and was not
applied to any workstations. The Worm cost the IRS an estimated $3.6 million in lost salaries
and $50.6 million in lost or delayed tax assessments and tax collections.5
During our current and prior reviews, we found patch identification, testing, and monitoring
efforts were generally adequate. For example:
    •   Patch identification processes were generally in place and operating effectively. The
        CSIRC was primarily responsible for monitoring the computer industry and maintaining
        contacts with major computer vendors to identify when vulnerabilities become known
        and for evaluating the criticality of available security patches for the entire IRS. The
        CSIRC then notified IRS functions of existing vulnerabilities and the related security
        patches. The criticality of vulnerabilities and patches was based on risk, with the highest
        risk vulnerabilities requiring patching within 72 hours from when they were identified by
        the IRS.
    •   Patch testing procedures had been established and were in place. Once the patches
        became available, the appropriate IRS functions would test the patches to ensure they did
        not detrimentally affect existing systems. After the patches passed testing, they were
        distributed for installation on appropriate systems.
    •   Patch monitoring efforts were identifying unpatched systems effectively. IRS functions
        monitored systems using various methods. Windows-based systems were perpetually
        scanned for missing patches. An internal computer program6 was used for scanning
        non-Windows systems. The CSIRC also conducted periodic scanning for vulnerabilities.


4
  The Sasser Worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploit code to the computers. It also probed for other computers to infect.
This Worm rendered computers inoperable.
5
  The $50.6 million estimate was identified by the IRS in its post-Sasser Worm evaluation soon after the incident
occurred. The IRS has since stated that tax assessments and tax collections would have been processed by the IRS
in subsequent tax periods and, therefore, do not represent actual losses.
6
  The Law Enforcement Manual Checker is an internally developed software suite designed to scan computer
systems to ensure compliance with various computer security standards required by the IRS.
                                                                                                           Page 3
                               Uninstalled Computer Security Patches
                              Continue to Put Computer Systems at Risk



During Fiscal Year 2005, the IRS established a vulnerability and remediation group tasked with
identifying software for improving the overall management of the patching process. This group
includes managers and technicians from IRS computer security and operations functions. During
the first phase of this project, the group identified whether any vendor software existed that could
improve the IRS patch management process. The second phase of this project would involve
implementing any software procured.
Additionally, the IRS has implemented corrective actions from our prior reports containing patch
management issues. For example, the IRS established procedures for identifying, testing, and
monitoring security patches. Finally, the IRS conducted an internal review during the aftermath
of the Sasser Worm incident. This review identified breakdowns in procedures and
recommended corrective actions to prevent such an occurrence from happening again. These
issues included breakdowns in the communication and implementation processes that have since
been addressed.
Although the IRS has made commendable progress towards improving its patch management
processes, controls over patch installation continue to require attention.

Patch Installation Practices Continue to Result in Unpatched
Computer Systems
The IRS installs patches on its computers either through automated processes or by having
system administrators manually apply the patches to specific servers or workstations under their
control. However, these processes did not always ensure required patches were installed on all
computers. We identified the following problems with patch installation:
   •   The IRS’ own monitoring efforts determined that several essential security patches were
       not installed on Windows-based workstations
       and servers. An IRS report dated                      Despite recent improvements
       November 22, 2005, presented the results of               to patch management
       patch scanning conducted on 4,060 Windows            practices, the IRS continues to
       servers and 95,034 Windows workstations; it            have unpatched computers
       showed that 33 critical patches were missing          throughout  its infrastructure.
       from both workstations and servers. Overall,
       the report showed there were 9,478 occurrences
       of 1 or more of these 33 patches missing from the 4,060 servers. The report also showed
       227,976 occurrences of 1 or more of these 33 patches missing from the
       95,034 workstations. The IRS requires that critical patches be distributed for installation
       on systems within 72 hours from when they are identified by the IRS. While some of
       these missing patches may have been superseded by subsequent patches, the overall
       results demonstrate that many systems continue to go unpatched.


                                                                                             Page 4
                      Uninstalled Computer Security Patches
                     Continue to Put Computer Systems at Risk



roll out of this script is scheduled to be completed by February 2007. The IRS has also
taken steps to improve the success rate of patch distributions to workstations. These
steps include aggressive management of Tivoli® endpoints and considering an approach
that would not allow workstations onto the network until missing patches are updated.




                                                                                  Page 7
                                    Uninstalled Computer Security Patches
                                   Continue to Put Computer Systems at Risk



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the IRS’ practices for
ensuring the identification and installation of security updates for computer systems and
applications. To accomplish our objective, we:
I.       Determined whether the IRS effectively distributed and installed patches by consulting
         with appropriate staff and reviewing documentation, including IRS scans of
         Windows-based servers and workstations.
II.      Determined whether the IRS effectively tested patches prior to installation to applicable
         computing devices by identifying and evaluating the testing process.
III.     Determined whether the IRS effectively followed up on patch installation and proactively
         identified unpatched computers by consulting with appropriate organizations and
         reviewing documentation.
IV.      Determined the status and progress of IRS actions to address issues related to the Sasser
         Worm1 by consulting with appropriate offices and reviewing relevant documentation.
V.       Determined the status and progress of IRS actions to address recommendations from
         eight Treasury Inspector General for Tax Administration reports issued from Fiscal Years
         2001 through 2004 that contained issues related to patch management.
VI.      Reviewed the results from three Treasury Inspector General for Tax Administration
         reports issued after Fiscal Year 2004 that contained issues related to patch management.
         We did not review IRS actions to address the recommendations contained in these three
         reports because corrective actions had not been completed at the time of our review.
VII.     Determined the status of the IRS vulnerability and remediation group for addressing
         security patch issues.




1
 The Sasser Worm exploited a flaw in the Local Security Authority Subservice System on Microsoft Windows
computers and transferred additional exploit code to the computers. It also probed for other computers to infect.
This Worm rendered computers inoperable.
                                                                                                             Page 8
                            Uninstalled Computer Security Patches
                           Continue to Put Computer Systems at Risk



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Kent Sagara, Acting Director
Joseph Cooney, Acting Audit Manager
Bret Hunter, Lead Auditor
Jody Kitazono, Senior Auditor
Larry Reimer, Senior Auditor




                                                                                         Page 9
                           Uninstalled Computer Security Patches
                          Continue to Put Computer Systems at Risk



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Mission Assurance and Security Services OS:MA
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Information Security OS:CIO:IS
Director, Enterprise Systems Management OS:CIO:EU:ESM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 10
                                     Uninstalled Computer Security Patches
                                    Continue to Put Computer Systems at Risk



                                                                                  Appendix IV

                Prior Treasury Inspector General for Tax
                   Administration Audit Reports With
                   Security Patch Management Issues

The following Treasury Inspector General for Tax Administration audit reports contain patch
management issues.
      1. Secure Configurations Are Initially Established on Employee Computers, but
         Enhancements Could Ensure Security Is Strengthened After Implementation (Reference
         Number 2006-20-031, dated February 2006).
      2. Progress Has Been Made on Using the Tivoli® Software Suite,1 Though Enhancements
         Are Needed to Better Distribute Software Updates and Reconcile Computer Inventories
         (Reference Number 2006-20-021, dated December 2005).
      3. The Computer Security Incident Response Center Is Operating As Intended, Although
         Some Enhancements Can Be Made (Reference Number 2005-20-143, dated
         September 2005).
      4. Penetration Test of Internal Revenue Service Computer Systems (Reference
         Number 2004-20-073, dated April 2004).
      5. Key Security Controls of the Criminal Investigation Management Information System
         Have Not Been Implemented (Reference Number 2004-20-081, dated March 2004).
      6. Inadequate Accountability and Training for Key Security Employees Contributed to
         Significant Computer Security Weaknesses (Reference Number 2004-20-027, dated
         January 2004).
      7. Security Over Computers Used in Telecommuting Needs to Be Strengthened (Reference
         Number 2003-20-118, dated July 2003).
      8. Penetration Test of Internal Revenue Service Computer Systems (Reference
         Number 2003-20-082, dated March 2003).



1
    Tivoli® is a registered trademark owned by International Business Machines.



                                                                                       Page 11
                         Uninstalled Computer Security Patches
                        Continue to Put Computer Systems at Risk



9. Controls Over the Excise Files Information Retrieval System Website Should Be
   Improved to Better Deter and Detect External Attacks (Reference Number 2002-20-064,
   dated April 2002).
10. Controls Over the Procurement Website Should Be Improved to Better Deter and Detect
    External Attacks (Reference Number 2002-20-045, dated January 2002).
11. Controls Over the Internet Gateway Should Be Improved to Better Deter and Detect
    External Attacks (Reference Number 2001-20-101, dated June 2001).




                                                                                 Page 12
           Uninstalled Computer Security Patches
          Continue to Put Computer Systems at Risk



                                                 Appendix V

Management’s Response to the Draft Report




                                                      Page 13
 Uninstalled Computer Security Patches
Continue to Put Computer Systems at Risk




                                           Page 14
